     Department of Homeland Security

     ��������������������������


U.S. Customs and Border Protection Has Taken Steps 

 To Address Insider Threat, but Challenges Remain 


                    (Redacted) 





OIG-13-118                           September 2013

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov


                                     September 9, 2013

MEMORANDUM FOR:             Charles R. Armstrong
                            Assistant Commissioner and Chief Information Officer
                            Office of Information and Technology
                            U.S. Customs and Border Protection

FROM:                       Frank Deffer
                            Assistant Inspector General
                            Office of Information Technology Audits

SUBJECT:                    U.S. Customs and Border Protection Has Taken Steps
                            To Address Insider Threat, but Challenges Remain

Attached for your action is our final report, U.S. Customs and Border Protection Has
Taken Steps To Address Insider Threat, but Challenges Remain. We incorporated the
formal comments from the U.S. Customs and Border Protection (CBP) in the final report.

The report contains four recommendations aimed at improving CBP’s insider threat
program. Your office concurred with all of the recommendations. As prescribed by the
Department of Homeland Security Directive 077-01, Follow-Up and Resolutions for Office
of Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation. Once your office has fully implemented the recommendations,
please submit a formal closeout request to us within 30 days so that we may close the
recommendations. The request should be accompanied by evidence of completion of
agreed-upon corrective actions.

Please email a signed PDF copy of all responses and closeout requests to
OIGITAuditsFollowup@oig.dhs.gov. Until your response is received and evaluated, the
recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.




                                              

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Please call me with any questions, or your staff may contact Richard Saunders, Director,
   Advanced Technology Division, at (202) 254-5440.

   Attachment

   �




www.oig.dhs.gov                               2                                      OIG-13-118

                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security
                                             Washington, DC 20528 I www.oig.dhs.gov


Table�of�Contents��
Executive Summary............................................................................................................. 1


Background ........................................................................................................................ 2


Results of Audit ................................................................................................................... 5


           CBP Has Taken Steps To Address and Mitigate the Risk of Insider Threats ........... 5 

           Challenges Remain in Implementing a Robust Insider Threat Program ............... 13 

           Recommendations ................................................................................................ 19 

           Management Comments and OIG Analysis .......................................................... 20 


Appendixes
           Appendix A:          Objectives, Scope, and Methodology ............................................ 23 

           Appendix B:          Management Comments to the Draft Report ............................... 26 

           Appendix C:          Major Contributors to This Report ................................................ 29 

           Appendix D:          Report Distribution........................................................................ 30 


Abbreviations�
           CBP                   U.S. Customs and Border Protection
           CERT                  Computer Emergency Response Team
           DHS                   Department of Homeland Security
           DLP                   data loss prevention
           FBI                   Federal Bureau of Investigation
           FIPS                  Federal Information Processing Standards Publications
           IA                    Internal Affairs
           ICE                   U.S. Immigration and Customs Enforcement
           IT                    information technology
           ITWG                  Insider Threat Working Group
           JIC                   Joint Intake Center
           NIST                  National Institute of Standards and Technology
           OIG                   Office of Inspector General
           OIT                   Office of Information and Technology
           SOC                   Security Operations Center
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive�Summary
   �
   We reviewed the efforts of U.S. Customs and Border Protection (CBP) to address the risk
   posed by trusted insiders. Our objective was to assess CBP’s progress toward protecting its
   information technology assets from threats posed by its employees, especially those with
   trusted or elevated access to sensitive information systems or data.

   CBP has made progress in addressing the risk of insider threats across the organization.
   Specifically, CBP established a working group and a committee focused on the risk. Further,
   CBP researches employee behavior, conducts pre-employment screening including
   polygraph assessments, and participates in border corruption task forces with the Federal
   Bureau of Investigation. Also, CBP established a Joint Intake Center and Security Operations
   Center to centrally identify, monitor, and respond to potential insider threat risks or
   incidents in information systems and networks. While these efforts have resulted in some
   improvements, CBP has opportunities to improve its security posture against threats posed
   by employees and contractors.

   CBP can establish a framework to further strengthen its insider threat program by
   implementing policies and procedures that integrate the requirements, standards, and
   guidance provided by the administration, Department of Homeland Security, and the National
   Institute of Standards and Technology. In addition, CBP could implement a risk management
   plan that identifies the broad spectrum of insider threat risks facing CBP and how these risks
   could be mitigated. The plan will help ensure that the entire agency is risk aware and that
   the risk is consistently and continually addressed. Furthermore, the current security and
   awareness training program should be expanded to include insider threat-based training for
   all agency employees.

   Finally, CBP can strengthen the technical processes and controls for its technology
   infrastructure by applying critical security patches on information systems, reducing the
   use of unauthorized portable media devices, detecting or even preventing the
   exfiltration of sensitive information through email applications, and conducting periodic
   onsite vulnerability wireless security scans and assessments.

   We are making four recommendations that, if implemented, should strengthen CBP’s
   management of the threat posed by trusted insiders. CBP concurred with all of the
   recommendations.



www.oig.dhs.gov                                1                                       OIG-13-118 

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background��
   �
   CBP’s primary mission is to prevent terrorists and terrorist weapons from entering the
   United States and to ensure the security of our Nation’s borders and ports of entry.
   As the largest law enforcement agency in the United States, CBP currently has more
   than 58,000 employees serving nationwide and internationally. These employees
   include air and marine interdiction agents and enforcement officers, border patrol
   agents, field operations officers, agriculture specialists, and mission support personnel.
   From October 1, 2004 to September 30, 2011, 132 CBP employees were arrested or
   indicted for corruption-related activities. These employees were trusted insiders who
   had been vetted and cleared by personnel security procedures. They deliberately
   misused their positions for personal gain by misusing government computer systems,
   passing sensitive information, stealing money and property, or deliberately
   circumventing operational procedures. Such actions are a threat to the morale and
   safety of CBP employees and contractors, the agency’s mission, and national security.

   According to CBP officials, a malicious insider could do the most harm to CBP in the
   following areas:

       •   Unauthorized use or disclosure or modification of information from databases
           (classified and unclassified), operational information (e.g., manpower surges and
           operational technology), or operational activity (e.g., sensitive operations);
       •   Disruption of critical information technology (IT) networks; and
       •   Border security breaches (e.g., corrupt employees who facilitate the flow of
           illegal drugs and aliens into the United States and disclose sensor locations and
           gate codes).

   Based on designated job functions or status within the organization, trusted insiders are
   typically given unfettered or elevated access to mission critical assets. Therefore, they
   may be thoroughly familiar with internal policies and procedures, electronic building
   access systems used for physical security, and technical access controls (such as firewalls
   and intrusion detection systems) used for information security. As a result, employees
   may also be aware of weaknesses in organizational policies and procedures, as well as
   physical and technical vulnerabilities in computer networks and information systems.
   This institutional knowledge poses a continual risk to the organization because in the



www.oig.dhs.gov                                 2                                       OIG-13-118 

                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   wrong hands it could be used to facilitate malicious attacks and even collusion with
   external attackers.

   Because of CBP’s sensitive mission, any unauthorized disclosure of sensitive information
   could adversely affect the security of its information systems, assets, resources,
   employees, and the general public. As a result, the agency must be constantly aware of
   any adversary, especially those with sophisticated expertise and significant resources to
   create opportunities for multiple attacks. CBP could be attacked through footholds in
   the IT infrastructure to steal or destroy information or undermine or impede mission
   critical assets. Adversaries can carry out any number of attacks at any time through
   breaches, creating a persistent threat.

   Since 2001, the Computer Emergency Response Team (CERT) Insider Threat Center of
   the Software Engineering Institute at Carnegie Mellon University has researched and
   gathered data about malicious insider acts, including IT sabotage, fraud, theft of
   confidential or proprietary information, espionage, and potential threats to our Nation’s
   critical infrastructures. CERT has researched approximately 400 insider threat cases,
   including fraud, sabotage, and theft of intellectual property. All of these cases were
   prosecuted within the United States.

   CERT defines a malicious insider as any current or former employee, contractor, or
   business partner who:

       •	 Has or had authorized access to an organization’s network, system, or data; and
       •	 Has intentionally exceeded or intentionally used that access to negatively affect
          the confidentiality, integrity, or availability of the organization’s information or
          information systems.1

   CERT has collaborated with U.S. Secret Service behavioral psychologists to collect
   approximately 150 actual insider threat cases that occurred in U.S. critical infrastructure
   sectors between 1996 and 2002. Each was examined from a technical and behavioral
   perspective. CERT’s research helped them to develop best practices that provide a
   framework for establishing an insider threat program within an organization. In


   1
    Carnegie Mellon University Software Engineering Institute, Common Sense Guide to Mitigating Insider
   Threats (4th Edition).


www.oig.dhs.gov                                      3	                                            OIG-13-118 

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   addition, CERT devised a list of defensive measures that could help detect or prevent
   insider attacks. For example, CERT recommends that organizations:

       •	 Include insider threat as part of an enterprise-wide risk assessment;
       •	 Conduct a security awareness campaign to ensure that the insider threat is
          understood across the organization;
       •	 Develop and clearly define organizational policies relevant to the insider threat,
          enforcing those policies consistently and fairly; and
       •	 Secure both the physical and electronic environment, including account and
          password management, separation of duties, controls for the software
          development process, change controls, remote access, and privileged user
          accounts, especially those used by system administrators.

   Executive Order 13587 – Structural Reforms to Improve the Security of Classified
   Networks and the Responsible Sharing and Safeguarding of Classified Information,
   issued in 2011, requires agencies that operate or access classified computer networks to
   implement an insider threat detection program consistent with guidance and standards
   developed by an interagency, government-wide insider threat task force. Agencies,
   such as CBP, will be responsible for implementing an insider threat detection and
   prevention program consistent with guidance and standards developed by the task
   force. Further, in November 2012, the administration announced the National Insider
   Threat Policy and Minimum Standards for Executive Branch Insider Threat Programs that
   provides direction and guidance to promote the development of effective insider threat
   programs within departments and agencies.

   The initial public draft of National Institute of Standards and Technology (NIST) Special
   Publication 800-53, Revision 4, Security and Privacy Controls for Federal Information
   Systems and Organizations, includes new requirements for agencies to address the risk
   posed by the insider threat. NIST anticipated releasing this final publication in April
   2013. Federal agencies will have up to 1 year from the release of the final publication to
   comply with the new requirements.


   �




www.oig.dhs.gov                                4	                                      OIG-13-118 

                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Results�of�Audit�
   �
           CBP�Has�Taken�Steps�To�Address�and�Mitigate�the�Risk�of�Insider�Threats���
           �
           CBP has made progress in addressing the risk of insider threats across the
           organization. The agency established an Insider Threat Working Group (ITWG)
           and Integrity Integrated Planning and Coordination Committee (Integrity IPCC).
           CBP also researches employee behavior, conducts pre-employment screening
           including polygraph assessments, and participates in border corruption task
           forces with the Federal Bureau of Investigation (FBI). Additionally, CBP
           established a Joint Intake Center and Security Operations Center to centrally
           identify, monitor, and respond to potential insider threat risks or incidents in
           information systems and networks. Together, these steps provide opportunities
           for CBP to improve its security posture against the threat posed by employees
           and contractors. This includes decreasing the likelihood of unauthorized
           disclosure, modification, theft, or destruction of sensitive information or
           disruption of critical information technology networks and services, and
           increasing the likelihood of detecting and responding to computer security
           incidents and breaches, especially those at critical sites such as field offices along
           the U.S. borders.

           Insider�Threat�Working�Group�

           In January 2012, CBP established the ITWG to review existing insider threat
           mitigation efforts and establish a cohesive, responsive, and robust insider threat
           program. The ITWG included agency personnel from various offices, including
           the Office of Internal Affairs (IA), Office of Information and Technology (OIT), and
           Office of Intelligence and Investigative Liaison. The group’s primary objectives
           were to:

                  •   Review CBP security policy and revise as needed;
                  •   Create and update training for employees;
                  •   Draft an insider threat working group charter;
                  •   Examine insider threat detection tools and capabilities; and
                  •   Formulate incident reporting protocols.




www.oig.dhs.gov                                    5                                       OIG-13-118 

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           In April 2012, CBP suspended the ITWG while awaiting guidance from the
           Department of Homeland Security (DHS) based on the administration’s National
           Insider Threat Policy and Minimum Standards for Executive Branch Insider Threat
           Programs and the DHS Insider Threat Policy and Minimum Standards. At the
           time of our audit, CBP had not formally approved any insider threat-specific
           policies and procedures to further develop the program.
   �
           Integrity�Integrated�Planning�and�Coordination�Committee��

           According to IA, drug trafficking organizations have been seeking to infiltrate CBP
           and actively recruit CBP employees to help them carry out unlawful activities.
           Examples of insider threat related corruption includes such offenses as alien
           smuggling, allowing loads of narcotics through a port of entry or checkpoint,
           providing sensitive information to a drug trafficking organization, selling
           immigration documents, or circumventing CBP’s detection systems. Trusted CBP
           employees have been arrested or indicted for corrupt acts that involved their
           abuse of their knowledge, access, or authority granted by virtue of their official
           position.

           To address the corruption and misconduct in CBP’s workforce, in 2011, CBP
           created the Integrity IPCC to facilitate ongoing integrity-related operations of
           individual offices within CBP. This committee is responsible for ensuring that
           CBP fully implements integrity-related initiatives. Through this collaborative
           effort, committee members, including internal CBP offices and external law
           enforcement partners, discuss integrity-related issues, ideas, and best practices.

           The committee reviewed and evaluated recommendations from the Homeland
           Security Studies and Analysis Institute’s December 2011 study, including
           recommendations on integrity-related areas such as:

                  •	   CBP operational and organizational structure;
                  •	   Employee recruitment and vetting process;
                  •	   Integrity training process and programs;
                  •	   Metrics and information sharing; and
                  •	   Prevention, detection, monitoring, and investigative programs and
                       initiatives.



www.oig.dhs.gov                                    6	                                      OIG-13-118 

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           CBP made progress in complying with the institute’s recommendations, some of
           which are directly applicable to an insider threat program. For example, CBP
           implemented polygraph testing of all law enforcement officer applicants that
           could identify potential behavior issues and insider threat risks before being
           hired. The polygraph exam includes questions on topics including espionage,
           sabotage, terrorism, unauthorized disclosure of classified information,
           unreported foreign contacts, and deliberate damage to or malicious misuse of
           U.S. Government information or defense systems. CBP is also developing an
           integrity-related communications strategy for CBP employees that would help
           reinforce professional conduct, integrity, and ethical behavior.
           �
           CBP has a comprehensive integrity strategy that may identify a potential insider
           threat risk. The strategy includes a thorough initial screening of applicants, pre-
           employment polygraph examinations of law enforcement candidates, and an
           extensive background investigation that commences upon the initial selection of
           a prospective employee. Periodic reinvestigations of an employee’s background
           are conducted every 5 years and may identify emerging integrity, conduct, and
           insider threat concerns that have the potential to affect the CBP mission.
           �
           Behavioral�Research�
           �
           The Behavioral Research Branch provides situational awareness to CBP
           executives on CBP employee activities, such as the insider threat risk, and to
           identify potential insider threat risks over a period of time. The purpose of the
           research is to understand how and why employees are engaged in corruption
           and to provide data-driven research for personnel security, analysts,
           investigators, and supervisors. This will help ensure that CBP’s prevention,
           detection, and investigative efforts are grounded in scientific evaluation of
           known corruption cases.

           The Behavioral Research Branch maintains a database of all incidents of
           employee delinquency including arrests, indictments, citations, and detainments
           for violations of law reported to the Joint Intake Center between fiscal year 2005
           and the present. The branch routinely analyzes information in the employee
           delinquency database and produces weekly status reports for the IA Assistant
           Commissioner. The branch also provides monthly status reports to the CBP



www.oig.dhs.gov                                 7                                       OIG-13-118 

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


              Commissioner’s office and the IA Assistant Commissioner. Although it did not
              send weekly or monthly reports to any external entities, the branch also
              responds to ad hoc requests for information from the media and Congress.

              To understand how and why employees engage in corrupt activities, the
              Behavior Research Branch also examined cases of known CBP employees
              arrested and convicted of such activities between fiscal years 2005 and 2011.
              This research and analysis is being used to understand the effect that certain
              policies had on misconduct and corruption in CBP.

              The Behavioral Research Branch also produced interim reports that include
              information on corruption in CBP, background investigations, and periodic
              reinvestigations. The branch concluded that CBP-wide steps should be taken to
              reduce corrupt activity.
              �
              Anti-Border�Corruption�Act�Requirements�

              The Anti-Border Corruption Act of 2010 requires CBP to implement integrity-
              related controls to prevent and detect potential insider threat risks, such as
              employee misconduct and corruption.2 According to the act, by January 2013, all
              CBP law enforcement applicants must pass a polygraph examination before
              being hired. The law further requires that CBP initiate all periodic personnel
              reinvestigations and report to Congress every 6 months on its progress toward
              meeting these requirements by January 2013.

              CBP’s pre-employment polygraph examinations of law enforcement applicants
              and background investigations can thoroughly vet individuals who are seeking
              employment with, or employed by, CBP. As of January 2013, CBP had met the
              requirements of the act, including administering polygraph exams for all new law
              enforcement applicants.

              CBP also developed a periodic polygraph examination customized to address
              CBP’s mission-specific and insider threat risks. According to the Credibility
              Assessment Division, the polygraph is a proven technique used in the intelligence
              community to mitigate insider threat risk. The examination combines

   2
       Public Law 111-376.


www.oig.dhs.gov                                   8                                       OIG-13-118 

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           techniques used by the FBI, Defense Intelligence Agency, and Central Intelligence
           Agency, as well as the National Center for Credibility Assessment’s standards and
           best practices. CBP began a pilot study, endorsed by the center, to confirm the
           validity and reliability of this new examination procedure.

           In July 2012, IA developed a plan that identified the risk of corruption in non-law
           enforcement positions and the need to expand Office of Personnel Management
           requirements for pre-employment polygraphs to other critical, sensitive
           positions. These critical positions include agriculture specialists, import
           specialists, seized property specialists, intelligence analysts, OIT personnel, and
           certain personnel assigned internationally.

           According to CBP officials, certain OIT personnel, specifically system and
           database administrators, could have the greatest potential negative effect on
           national security than any other positions in CBP. Based upon assigned job
           duties, these employees are typically given the highest level of access to
           information systems under their purview. Given that they possess the
           knowledge and ability to safeguard these systems, they also possess institutional
           knowledge to know whether and where critical systems vulnerabilities might
           exist, and how to best exploit those vulnerabilities.

           There is an advanced persistent threat that CBP must protect itself against. This
           comes from CBP’s employees and contractors responsible for safeguarding and
           protecting its own IT assets. Significant harm to CBP’s information systems and
           operations could occur through unauthorized modification of hardware or
           software, unauthorized modification of system logs to conceal harmful activity
           on IT assets, planting viruses and logic bombs to destroy or covertly remove
           sensitive information, or creating backdoor system accounts that could be used
           to facilitate future attacks. Successfully carrying out any one of these activities
           could result in significant loss, theft, or destruction of mission sensitive
           information. This in turn could have adverse effects on the organization
           internally or externally through negative publicity and the potential loss of public
           confidence in the organization.

           �
           �



www.oig.dhs.gov                                 9                                        OIG-13-118 

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Border�Corruption�Initiatives�
   �
           CBP implemented a number of border corruption initiatives that may identify
           insider threat risks within CBP. In June 2010, CBP IA signed a memorandum of
           understanding with the FBI delineating the responsibilities of the National
           Border Corruption Task Force participants, designed to maximize inter-agency
           cooperation and formalize relationships between the participating agencies for
           policy guidance, planning, training, and public and media relations. These multi-
           jurisdictional and multi-agency task forces share information, intelligence, and
           investigative resources in an effort to combat workforce corruption. Twenty-
           eight full time IA agents participate on 22 FBI-led Border or Public Corruption
           Task Forces. As of August 2012, IA was working on approximately 121 cases
           under the auspices of these Border or Public Corruption Task Forces.

           In addition, the FBI’s National Border Corruption Task Force at its headquarters
           oversaw national investigative efforts and gathered operational information and
           tactical and strategic intelligence related to border corruption issues. As a result,
           several instances of CBP employee corruption were uncovered, investigated, and
           adjudicated.
   �       �
           Counterintelligence�Operations�and�Liaison�Initiatives�
   �
           To protect against illicit foreign intelligence services and transnational criminal
           organizations, the Counterintelligence Operations and Liaison Group established
           procedures and training for CBP employees within the United States and while
           on official or non-official travel outside the United States. Trusted employees
           could be targeted by foreign entities and criminal organizations to obtain
           sensitive information about CBP’s operations and activities.

           The group reviews foreign travel by employees, shares information with
           intelligence community partners, and conducts counterintelligence awareness
           training that includes information about espionage indicators and reporting of
           suspicious activity. Counterintelligence awareness training was designed for CBP
           personnel who may be targeted by foreign intelligence services and
           transnational criminal organizations while traveling abroad officially or non-
           officially.



www.oig.dhs.gov                                 10                                       OIG-13-118 

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           In addition to its international travel-related activities, the group initiated
           “Project Red Flag,” which includes representatives from IA divisions, and
           identifies potential insider threat risks; chaired the ITWG and is the point of
           contact for the DHS Intelligence and Analysis’ ITWG; and attends intelligence
           community insider threat seminars, conferences, and meetings.
   �       �
           Joint�Intake�Center�
           �
           In March 2004, CBP and U.S. Immigration and Customs Enforcement (ICE)
           formed the Joint Intake Center (JIC) for the receipt and processing of allegations
           of misconduct and other reported incidents (including potential insider threat
           risks or incidents in information systems and networks) involving personnel and
           contractors employed by both agencies. Establishment of the JIC helped ensure
           the integrity and professionalism of the CBP and ICE workforces through the
           creation of an effective allegation referral process and the establishment of
           reporting and tracking processes that guarantee accountability throughout both
           organizations.

           The JIC provides both agencies with a centralized, collaborative, and uniform
           system for processing incident reports and alleged misconduct including criminal
           activity that violates State or Federal criminal laws, such as employee arrests and
           serious misconduct. The JIC also serves as the conduit to the DHS Office of
           Inspector General (OIG). The OIG retains the “right of first refusal” on all
           allegations of misconduct involving DHS personnel and contractors. The OIG
           accepts certain allegations for investigation; those that are not accepted are
           referred back to the JIC for investigation, fact finding, or immediate action by
           CBP or ICE management.

           In addition, the JIC maintains a CBP internal website, “Trust Betrayed,” which
           presents examples of criminal misconduct by CBP employees. These examples
           remind employees of the personal and professional costs associated with
           integrity misconduct.
           �
           �
           �



www.oig.dhs.gov                                11                                       OIG-13-118 

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           DHS�Security�Operations�Center�and�CBP�Office�of�Information�and�Technology��
           �
           To improve identification of suspicious insider activity, the DHS Security
           Operations Center (SOC) monitors computer networks and information systems
           and data on a day-to-day basis. According to CERT research, monitoring and
           logging employees’ behavior while they are using government-issued computers
           or network resources helps to better identify suspicious insider activity before a
           serious breach of security can occur. SOC activities include analyzing computer
           system security event logs and responding to computer security incidents as
           needed.

           OIT also has programs and processes designed to detect unauthorized insider
           threat actions that, if left unchecked, could pose as a serious threat to CBP’s
           mission and security. These programs and processes included the following:

           •	 Monitoring the DHS external Internet connections using data loss prevention
              technology to facilitate identifying sensitive information exfiltration;

           •	 Monitoring secure remote access connections to CBP IT assets to detect
              anomalous authentication attempts from external DHS sites in order to
              respond to these attempts;

           •	 Blocking access to non-DHS Internet webmail sites on CBP IT assets. As a
              result, CBP employees cannot access webmail sites such as Gmail, Hotmail,
              and Yahoo, which a malicious insider could use to transfer sensitive and
              unauthorized information;

           •	 Establishing a program to help ensure that only authorized modifications to
              IT systems are executed;

           •	 Separating application developers’ duties to ensure that one individual
              cannot modify code and push it to production systems; and

           •	 Establishing the Computer Security Incident Response Center as a single
              location for employees to report security incidents, such as suspicious events
              or unauthorized actions. Incidents reported to the SOC are in turn reported
              to the U.S. Computer Emergency Readiness Team and other applicable
              stakeholders, such as the DHS Privacy Office, the DHS Chief Information
              Officer, and the DHS Chief Information Security Officer.


www.oig.dhs.gov                                12                                 	     OIG-13-118 

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           Although CBP has taken actions to mitigate some of the risks associated with the
           insider threat, challenges remain in addressing the threat holistically with
           regards to program, management, and technical aspects of daily operations.


           Challenges�Remain�in�Implementing�a�Robust�Insider�Threat�Program���

           CBP can establish a framework to further strengthen its insider threat program by
           implementing policies and procedures that integrate the requirements, standards, and
           guidance provided by the administration, DHS, and NIST. In addition, CBP could
           implement a risk management plan that identifies the broad spectrum of insider
           threat risks facing CBP and how these risks could be mitigated. The plan will help
           ensure that the entire agency is risk aware and that the risk is consistently and
           continually addressed. Furthermore, the current security and awareness training
           program should be expanded to include insider threat-based training for all agency
           employees. Finally, CBP can strengthen the technical processes and controls for its
           technology infrastructure by applying critical security patches on information systems,
           reducing the use of unauthorized portable media devices, detecting or even
           preventing the exfiltration of sensitive information through email applications, and
           conducting periodic onsite vulnerability wireless security scans and assessments.

           Insider�Threat�Program�and�Risk�Management�Plan���

           CBP recognizes the need for a centralized, coordinated insider threat program,
           but has not fully established one agency-wide. An insider threat program should
           include developing and implementing agency-wide insider threat specific policies
           and procedures that provide a consistent and clear message to employees
           regarding their roles and responsibilities for mitigating the insider threat risk.
           These policies and procedures should integrate the requirements, standards, and
           guidance provided by the administration, DHS, and NIST.3

   3
     Requirements, standards, and guidance referred to include: Executive Order 13587 – Structural Reforms
   to Improve the Security of Classified Networks and the Responsible Sharing and Safeguarding of Classified
   Information; National Insider Threat Policy and Minimum Standards for Executive Branch Insider Threat
   Programs; December 2012 draft of the DHS Insider Threat Policy and Minimum Standards; and the initial
   public draft of NIST Special Publication 800-53, Revision 4, Security and Privacy Controls for Federal
   Information Systems and Organizations. The CERT Insider Threat Center of the Software Engineering
   Institute at Carnegie Mellon University has developed best practices that provide a framework for
   establishing an insider threat program within an organization.



www.oig.dhs.gov                                       13                                             OIG-13-118 

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           As discussed earlier, the ITWG is responsible for developing such an agency-wide
           program, but it suspended its activities in April 2012 and is waiting to
           incorporate DHS policies and guidance into its Insider Threat Detection Program
           directive. Once approved, this directive will reestablish the ITWG, make agency
           participation mandatory, and articulate participant roles and responsibilities.

           CERT recommends that large organizations, such as CBP, formalize an insider
           threat program that can monitor and respond to insider threats. This would
           require establishing policies and procedures for addressing insider threat that
           require participation from human resources, legal, physical and personnel
           security, management, and IT. The administration’s National Insider Threat
           Policy and Minimum Standards for Executive Branch Insider Threat Programs
           would provide CBP direction and guidance on developing an agency-wide insider
           threat program. Further, the initial public draft of NIST Special Publication 800-
           53, Revision 4 recommends that organizations develop an insider threat program
           with clearly defined policies and consistent enforcement of these policies to
           achieve maximum effectiveness.

           Finally, as part of the implementation of a formal insider threat program, CBP
           needs to develop and implement a risk management plan that identifies the
           broad spectrum of insider threat risks facing CBP and how these risks could be
           mitigated. A plan would provide a framework to identify mission critical data,
           business processes, and information systems and a road map to implement
           appropriate security measures and controls to help counteract the insider
           threat. Furthermore, a plan should include a provision for periodic evaluation of
           the security categorization (e.g., low, moderate, or high) assigned to each
           information system per Federal Information Processing Standards (FIPS) 199,
           Standards for Security Categorization of Federal Information and Information
           Systems�to determine if each categorization is commensurate with the potential
           threat impact for each system.

           According to CERT, hindrances to risk management and communications
           throughout organizations may contribute to losses from insider threats.
           Implementing a risk management plan would help ensure that all employees are
           aware of and addressing risk consistently and continually across the enterprise.
           �
           �


www.oig.dhs.gov                                14                                      OIG-13-118 

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Expand�Employee�Training�and�Awareness�to�Include�the�Insider�Threat�Risk�
           ����
           CBP does not have an agency-wide required training and awareness program
           that addresses the insider threat. According to the Office of Training and
           Development, CBP does not have training that covers potential insider threat
           indicators among the CBP workforce. Further, CBP does not provide insider
           threat awareness briefings to all CBP employees. As a result, CBP employees
           may not have the knowledge to recognize insider threat behavior, adversaries’
           methods for recruiting insiders, and the appropriate process to report potential
           insider threats or actual attacks.

           CERT recommends that insider threat awareness should be incorporated into
           periodic security training for all employees. The December 2012 draft of the DHS
           Insider Threat Policy and Minimum Standards and the initial public draft of NIST
           Special Publication 800-53, Revision 4 both recommend that organizations
           provide awareness training on recognizing and reporting potential indicators of
           insider threat.

           Although CBP employees received training in courses related to insider threat,
           the agency had not yet fully developed insider threat-specific training. CBP
           currently requires all employees to complete annual integrity awareness and IT
           security awareness training. CBP can incorporate CERT recommendations
           concerning insider threat awareness into both of these annual training
           requirements.

           Security�Controls�and�Processes�for�Information�Technology�Assets�and�
           Operations

           The DHS 4300A Sensitive Systems Handbook, CBP Information Systems Security
           Policies and Procedures Handbook, NIST Special Publication 800-53, and FIPS
           provide guidance and requirements on periodically assessing system risk and
           applying the required technical security controls. The process of accurately
           assigning a risk level to an information system and properly applying the
           required minimum security controls is critical to mitigating organizations’ insider
           threat risk. Diligently applying these controls could reduce the likelihood of a




www.oig.dhs.gov                                15                                       OIG-13-118 

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


            breach or attack by increasing the degree of difficulty, level of effort, or
            knowledge required to carry out harmful activities.

            CBP needs to improve its implementation of the required�security controls and
            processes for IT assets and operations by applying critical security patches,
            reducing the use of unauthorized portable media devices, preventing exfiltration
            of sensitive information through email, and conducting onsite vulnerability
            wireless security scans and assessments.

            More Timely Application of Critical              Security Patches

            CBP has not fully implemented security patches for known             vulnerabilities on
                       4
            IT assets.                   used programming language in system applications
            and programs. By not implementing these patches, CBP is increasing the
            likelihood that vulnerabilities could be exploited by an attacker to compromise
            the confidentiality, integrity, or availability of any IT system that is not properly
            patched. CERT case studies have shown that malicious insiders will sometimes
            exploit known technical security vulnerabilities to obtain system access and carry
            out an attack. Failure to address known vulnerabilities, such as          , in a timely
            manner provides an insider increased opportunity to carry out such an attack.

            We conducted network security scans of 206,000 CBP IT assets and confirmed
            the existence of the        patch vulnerabilities at all geographical locations
            visited. According to a DHS SOC official, CBP has an estimated
            related vulnerabilities in its IT assets that had not been patched. According to
            CBP officials, these patches have not been implemented largely because many of
            CBP’s system applications are not compatible with newer versions of            .

            According to the DHS 4300A Sensitive Systems Handbook, CBP is required to
            promptly install security patches. Proactively addressing known security
            vulnerabilities should be a priority to mitigate the risk of insider threats.




   4
    A security patch is an update to an operating system, application, or other software issued specifically to
   correct particular problems with the software.


www.oig.dhs.gov                                        16                                               OIG-13-118 

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Reduce the Potential Use of Unauthorized Portable Media Devices

           CBP is not consistently enforcing a practice of allowing only authorized portable
           media devices, such as                             devices and                to
           connect to IT assets. The unauthorized downloading of sensitive information
           through unapproved storage devices is a constant threat to any organization.
           Threats of data loss increase when trusted insiders have extensive knowledge of
           the inner workings of the organization and their level of access allows close
           proximity to the data source. Malicious insiders can carry out attacks on an
           organization’s information systems and networks through unauthorized leakage
           and transfer of information through portable media or external storage devices.

           Our technical testing demonstrated that




                     Also, we determined through                               analysis
           that unauthorized portable electronic devices, such as
                                  had been connected to and operating on CBP IT assets
           from time to time.

           The DHS 4300A Sensitive Systems Handbook prohibits connecting unauthorized
           portable electronic devices to the agency network. Further, the handbook
           prohibits DHS personnel and contractors from using non-government issued
           removable media devices and connecting them to DHS IT assets.

           Prevent the Unauthorized Exfiltration of Sensitive Information Through Email

                              effective controls to monitor, detect, and prevent the
           unauthorized exfiltration of sensitive or personally identifiable information.
           During testing,
                                                            These test emails
                                                               multiple locations visited.




www.oig.dhs.gov                                 17                                       OIG-13-118 

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security




                                    The DHS Trusted Internet Connection has data loss 

           prevention (DLP) hardware in place to provide coverage for the DHS enterprise
           email content that includes CBP. The DHS SOC
                        According to CBP officials, these devices would be able to assist
           with the detection of unauthorized exfiltration of sensitive information through
           government email accounts.

           According to CERT, malicious insiders could use email to disseminate sensitive
           information to competitors or conspirators covertly. The DHS 4300A Sensitive
           Systems Handbook requires CBP to secure and filter all email content. The
           failure to monitor continually and detect unauthorized exfiltration of sensitive
           information through email provides a malicious insider ample means and
           opportunity to carry out such an attack, making it more difficult for an
           organization to protect itself.

           Conduct Vulnerability Wireless Security Scans and Assessments of CBP Sites

           CBP does not perform sufficient periodic onsite wireless vulnerability security
           scans and assessments on its IT infrastructure, including wireless routers,
           wireless access points, and authorized mobile devices. The process of
           conducting vulnerability assessments includes checking for unauthorized
           wireless devices connected to or operating on the CBP network. On a limited
           basis, the CBP Risk Assessment Team and the CBP Systems Test and Evaluation
           Team conduct onsite security assessments to identify unauthorized wireless
           access points.

           We performed onsite wireless assessments of critical CBP IT operations at
           multiple geographical locations. Using specialized security tools, our tests
           detected and identified the physical presence of unauthorized wireless access
           points and weak wireless encryption protocols being used within sensitive CBP
           areas at two locations.




www.oig.dhs.gov                                18                                       OIG-13-118 

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           According to SOC officials, 

           non-authorized wireless access points from being connected to the CBP network.
           Performing onsite wireless vulnerability scans could identify or prevent
           unauthorized devices being connected to the CBP network. Without regular
           onsite vulnerability assessments of information systems and wireless devices,
           CBP may not detect malicious wireless activities by a trusted insider.
   �
   �
   �       Recommendations��

           We recommend that the Assistant Commissioner and Chief Information Officer
           Office of Information and Technology for CBP:

           Recommendation�#1:�

           Establish an agency-wide insider threat program responsible for identifying and
           remediating the risk posed by the insider threat.

           Recommendation�#2:

           Implement an insider threat training and awareness program for the entire CBP
           workforce.

           Recommendation�#3:

           Strengthen technical security controls and processes of IT assets and operations
           including applying critical security patches and preventing use of unauthorized
           devices and exfiltration of sensitive information.

           Recommendation�#4:�

           Perform periodic onsite assessments of CBP sites to identify unauthorized
           wireless networks and devices connected to the CBP network.




www.oig.dhs.gov                               19                                       OIG-13-118 

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Management�Comments�and�OIG�Analysis�

           We obtained written comments on a draft report from the IA Assistant
           Commissioner. We have included a copy of the comments, in its entirety, in
           appendix B. CBP concurred with all of the recommendations.

           CBP�Comments�to�Recommendation�#1�

           CBP concurs with recommendation #1. CBP stated that the IA
           Counterintelligence Operations and Liaison Group (IA-CIOLG) will use the
           National Insider Threat Policy and Minimum Standards for Executive Branch
           Insider Threat Programs and the DHS Insider Threat Policy and Minimum
           Standards to reestablish CBP’s ITWG and Insider Threat Detection Program.

           IA CIOLG will be naming a full time program manager who will be responsible for
           reestablishing and further developing the ITWG. The manager will be contacting
           all pertinent CBP internal partners to bring them together to compose an ITWG
           charter, policy directive, and implementation plan with specific goals and
           objectives.

           The estimated completion date for this recommendation is November 1, 2013.

           OIG�Analysis�

           We agree that the actions being taken satisfy the intent of this recommendation.
           This recommendation will remain open until CBP provides documentation to
           support that the planned corrective actions are completed.

           CBP�Comments�to�Recommendation�#2�

           CBP concurs with recommendation #2. CBP stated upon reestablishment of the
           ITWG that insider threat training and awareness will be discussed. The ITWG will
           establish a subgroup focused on the production of a CBP-wide insider threat
           training and awareness program. The program will be created in coordination
           with CBP’s Office of Training and Development and in conjunction with any DHS
           guidance in order to produce a training and awareness program that meets the



www.oig.dhs.gov                               20                                     OIG-13-118 

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           requirements as stated in the National Insider Threat Policy and Minimum
           Standards for Executive Branch Insider Threat Programs. The estimated
           completion date for this recommendation is November 15, 2013.

           OIG�Analysis�

           We agree that the actions being taken satisfy the intent of this recommendation.
           This recommendation will remain open until CBP provides documentation to
           support that the planned corrective actions are completed.

           CBP�Comments�to�Recommendation�#3�

           CBP concurs with recommendation #3. CBP stated that CBP’s OIT will continue
           to patch system vulnerabilities in a timely manner. Per guidance from the
           Deputy Assistant Commissioner, OIT will implement security patch updates
           enterprise wide. OIT will continue to work with the program offices to evaluate
           the feasibility of implementing a 60-day cycle for implementing patch updates
           due to the large volume of new releases.

           In response to preventing the use of unauthorized devices and exfiltration of
           sensitive information, CBP has installed a data loss prevention solution on over
           64,000 workstation systems and it is operational. CBP continues to work with
           the vendor to improve the functionality of the blocking software and ensure
           consistent policy enforcement is in place.

           The estimated completion date for this recommendation is October 1, 2013.

           OIG�Analysis�

           We agree that the actions being taken satisfy the intent of this recommendation.
           This recommendation will remain open until CBP provides documentation to
           support that the planned corrective actions are completed.

           �
           �
           �



www.oig.dhs.gov                                21                                      OIG-13-118 

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           CBP�Comments�to�Recommendation�#4�

           CBP concurs with recommendation #4. CBP stated that the Risk Assessment
           Team under the Security and Technology Branch has been performing and will
           continue to perform periodic onsite assessments of CBP sites to identify
           unauthorized wireless networks and devices connected to the CBP network.

           CBP plans to provide a report documenting results from Security Risk
           Assessments, Security Compliance Inspections, and any ad hoc testing for
           unauthorized wireless access points.

           The estimated completion date for this recommendation is December 31, 2013.
           �
           OIG�Analysis�

           We agree that the actions being taken satisfy the intent of this recommendation.
           This recommendation will remain open until CBP provides documentation to
           support that the planned corrective actions are completed.




www.oig.dhs.gov                               22                                      OIG-13-118 

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix�A��
   Objectives,�Scope,�and�Methodology�
   The Department of Homeland Security, Office of Inspector General was established by
   the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
   General Act of 1978. This is one of a series of audit, inspection, and special reports
   prepared as part of our oversight responsibilities to promote economy, efficiency, and
   effectiveness within the Department.

   Our objective was to assess the progress made toward protecting its IT assets from the
   threat posed by its employees, especially those with trusted or elevated access to these
   assets. During the audit, we assessed CBP’s:

   •   Insider threat management process;
   •   Ability of selected employees to monitor and report suspicious employee behavior;
   •   Insider threat security policies;
   •   Insider threat security training and awareness; and
   •   Selected unclassified information systems critical to the mission of CBP.

   We reviewed CBP and DHS policies, procedures, processes, management plans, and
   wireless network security policies and documents. In addition, the assessment team
   reviewed system and security logs for unauthorized devices and wireless activities. We
   interviewed selected SOC, OIT, IA, and CBP personnel and management officials at the
   following fieldwork locations:

   •   CBP Headquarters, Washington, DC;
   •   CBP Joint Intake Center, Washington, DC;
   •   DHS Security Operations Center, Springfield, VA;
   •   Boeing Facility, Springfield, VA;
   •   National Targeting Center – Cargo, Herndon, VA;
   •   National Targeting Center – Passenger, Reston, VA;
   •   Washington-Dulles Port of Entry, Sterling, VA;
   •   CBP Joint Field Command, Tucson, AZ;
   •   Border Patrol Sector Headquarters, Tucson, AZ;
   •   Nogales Port of Entry, Nogales, AZ;
   •   CBP Field Operations Office, San Diego, CA;
   •   Border Patrol Borstar, Brown Field Airport, San Diego, CA;
   •   Otay Mesa Port of Entry, Otay Mesa, CA;
   •   San Ysidro Port of Entry, San Ysidro, CA;
   •   Air and Maine Operations Center, Riverside, CA;


www.oig.dhs.gov                               23                                     OIG-13-118 

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   •   Border Patrol Sector Headquarters, Chula Vista, CA;
   •   Miami Seaport, Cargo and Passenger, Miami, FL; and
   •   Key West International Airport and Seaport, Key West, FL.

   Additional fieldwork was performed through teleconferences or data calls with the Border
   Patrol Sector Headquarters, Blaine, WA; Caribbean Operations Control Center, Punta
   Salinas, PR; Border Patrol’s International Liaison Office, El Paso, TX; Newark Liberty
   International Airport, Newark, NJ; and the Elizabeth Seaport, Elizabeth, NJ.




   We conducted this performance audit between July 2012 and December 2012 pursuant
   to the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.



www.oig.dhs.gov                              24                                      OIG-13-118 

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   We appreciate CBP’s efforts to provide the necessary information and access to
   accomplish this audit. Major OIG contributors are identified in appendix C.
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �
   �

www.oig.dhs.gov                              25                                     OIG-13-118 

                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Appendix�B�
   Management�Comments�to�the�Draft�Report�

                                                                                           1300 Penruylva.nt• Avenue NW
                                                                                           Washington, DC 20229



                                                                                           US. Customs and
                                                                                           Border Protection
                  June 28, 2013



                  MEMORANDUM FOR:               FRANK DEFFER
                                                ASSISTANT INSPECTOR GENERAL FOR IT AUDITS
                                                DEPARTMENT OF HOMELAND SECURJTY

                  FROM:                         James F. Tomsheck            ~           ~
                                                Assistant Commissioner            ~
                                                Office of Internal Affairs

                  SUBJECT:                      Response to the Office of Inspector General's Drafi Report
                                                Entitled. "U.S. Customs and Border Protection Has Taken Steps
                                                To Address Insider Threat. but Challenges Remain"
                                                (OIG-12-044-ITA-CBP)

                  Thank you for the opportunity to review and comment on this draft report. U.S. Customs and
                  Border Protection (CBP) appreciates the Office of Inspector General's (OIG 's) work in planning
                  and conducting its review and issuing this report.

                  CBP is pleased the OIG has identified progress made by our agency. The efforts undertaken
                  separately by the various CBP offices/divisions are the foundation of a robust and responsive
                  insider threat detection capability. CBP acknowledges bringing all these efforts together under an
                  overarching insider threat program will deliver a coordinated response to the threat posed by
                  trusted insiders and strengthen our ability to manage that threat. CBP will continue Io work
                  towards improving its insider threat detection capability so that we as an agency can continue to
                  carry out our primary mission; ensuring the security of our Nation's borders and ports of entry.

              The report contains four recommendations directed to CBP. CBP concurred with all four of the
              recommendations. A summary ofCBP's corrective action plans to address the recommendations
              is provided below:

                  Recom mendation # I : Establish an agency-wide insider threat program responsible for
                  identifying and remediating the risk posed by the insider threat.

              CBP Response: Concur. Internal Affairs (lA)-Countcrintelligence Operations and Liaison
              Group (CIOLG) will use the White I louse's National Insider Threat Policy and Minimum
              Standards and the U .S. Department of Homeland Security (DHS) Insider Threat Policy and




www.oig.dhs.gov                                                  26                                                       OIG-13-118 

                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security



                                                                  2


                  Minimum Standards as the framework to reestablish CBP's Insider Threat Working Group
                  (ITWG) and Insider Threat Detection Program. IA-CIOLG has set the fo llowi ng goals and
                  estimated completion dates in order to meet recommendation I.

                          LA-CIOLG will name a full time program manager who wi ll fun her develop and oversee
                          Lhe CBP-ITWG. Estimated completion date is August 30, 2013.
                      •   The ITWG Program Manager will make contact wilh all pertinent internal partners within
                          lA as well as pertinent offices outside lA and bring them together in order to reestablish
                          the CB P-ITWG. Estimated completion date is September 13,2013.
                      •   The ITWG Program Manager in coordination with group members will compose an
                          ITWG Charter and Policy Directive. Estimated completion date is October 4, 2013.
                     •    The JTWG will develop an implementation plan with specific goals and objectives.
                          Estimated completion date is November I, 2013.

                  Estimated C ompletion Date: November I, 2013

                  Recommendation #2: Implement an insider threat training and awareness program for the
                  entire CBP workforce.

                  CBP Resp onse: Concur. Upon the reestablishment of the ITWG, insider threat training and
                  awareness will be discussed and included during Lhe production and approval of an ITWG
                  Charter, ITWG Policy Directive and ITWG implementation plan. A subgroup focused on the
                  production of a CBP-wide insider threat training and awareness progr am will be created in
                  coordination with CBP's Office of Training and Development and in conj unction with any DHS
                  guidance in order to produce a training and awareness program that meets the requirements as
                  stated in the National Insider Threat Policy and Minimum Standards.

                  Estimated Completion Date: November 15, 2013

                  Recommendation #3 : Strengthen technical security controls and processes of infonnation
                  technology (IT) assets and operations including applying critical security patches and preventing
                  use of unauthorized devices and ex filtration of sensitive informat ion.

                  C BP Response: Concur. In response to ·'applying critical security patches'' CBP's Office of
                  Information and Technology (OJT) will continue to patch system vulnerabilities in a timely
                  manner. Per guidance from the Deputy Assistant Commissioner, OJT will implement security
                  patch updates enterprise wide. OIT will also continue to work with the Program O ffices to
                  evaluate the feasi bility of implementing a 60-day cycle for implementing patch updates due to
                  the large volume of new releases. Estimated completion date is October I, 2013.




www.oig.dhs.gov                                                27                                                      OIG-13-118 

                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security



                                                                    3


                  In response to "preventing use of unauthorized devices and ex filtration of sensitive information:·
                  CBP has installed a data loss prevention solution on over 64,000 workstation systems and it is
                  operational. CBP continues to work with the vendor to improve functionality of the blocking
                  software. The vendor will provide an update to CBP by July 31, 2013, at which time predicated
                  on the vendor's successful resolution of any issues, we will ensure that we have consistent policy
                  enforcement in place. Estimated completion date is September 30,2013.

                  Estimated Completion Date: October I, 2013

                  Recommendation #4: Perform periodic onsite assessments ofCDP sites to identify
                  unauthorized wireless networks and devices connected to the CBP network.

                  C BP Response: Concur. The Risk Assessment Team under the Security and Technology
                  Policy Branch has been performing and will continue to perform periodic onsite assessments of
                  CBP sites to identify unauthorized wireless networks and devices connected to the CBP network.
                  CBP plans to provide a report documenting results from Security Risk Assessments, Security
                  Compliance Inspections and any ad hoc testing for unauthorized wireless access points.
                  Estimated completion date is December 31 , 2013.

                  Estimated Completion date: December 31, 2013

                  Again, thank you for the opportunity to review and comment on this draft report. Technical and
                  sensitivity comments were previously provided under separate cover.

                  If you have any questions regarding this response. please contact me or have a member of your
                  staff contact Ms. Patricia Quintana, CBP Audit Liaison, at (202) 325-7711. We look forward to
                  working with you in the future.




www.oig.dhs.gov                                                28                                                       OIG-13-118 

                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix�C�
   Major�Contributors�to�This�Report��
   Richard Saunders, Director
   Philip Greene, Audit Manager
   Scott He, Lead IT Specialist
   Jason Dominguez, IT Specialist
   Sandra Ho, IT Specialist
   David Bunning, IT Specialist
   Michael Horton III, Management and Program Assistant
   Kelly Herberger, Communications Analyst
   Aaron Zappone, Referencer




   �
                         �




www.oig.dhs.gov                            29                   OIG-13-118 

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix�D�
   Report�Distribution��
                      �
   Department�of�Homeland�Security�����

   Secretary
   Deputy Secretary
   Chief of Staff �
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Director of Local Affairs, Office of Intergovernmental Affairs
   Chief Information Officer
   Chief Information Security Officer

   Customs�and�Border�Protection�

   CBP Commissioner
   CBP Assistant Commissioner, Internal Affairs
   CBP Chief Information Officer
   CBP Chief Information Security Officer
   CBP Audit Liaison

   Office�of�Management�and�Budget�
   �
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate

   �
   �
   �
   �



www.oig.dhs.gov                                30                          OIG-13-118 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
